               Additional Efforts Could Further Improve the
               Execution of the National Research Program

                                   January 2004

                       Reference Number: 2004-30-044




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           January 29, 2004



       DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND STATISTICS


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - Additional Efforts Could Further Improve the
                              Execution of the National Research Program
                              (Audit # 200330013)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       National Research Program (NRP). The overall objective of this review was to
       determine whether the IRS Examination function effectively implemented the 2002 NRP
       initiative.
       In October 2002, the IRS initiated the return examination phase of the NRP to gather
       the data it needs to measure taxpayer compliance and to support its strategic planning
       process. The goal of the study is to accurately measure reporting compliance while
       minimizing the burden on taxpayers during the process. The NRP is expected to
       provide essential information concerning taxpayer compliance that will allow the IRS to
       identify the tax returns with the highest compliance risks and reduce the burden on
       compliant taxpayers.
       In summary, the NRP is important because in recent years the IRS has been selecting
       tax returns for examination using very dated information; the last time similar
       information was obtained was 1988. The prior compliance efforts were negatively
       perceived because the examinations were very intrusive – the examiner verified every
       item on the tax return. To overcome this problem, the IRS designed the NRP process
       to reduce the intrusiveness of the examinations by minimizing line-by-line verifications.
       Even with the design changes, the NRP process remains as a very sensitive issue to
       the Congress and other external stakeholders such as the taxpayer representative
       community.
       The NRP will be completed in three cycles and will cover both individual and business
       returns. The individual return cycle of the NRP includes face-to-face examinations of a
                                                       2


sample of approximately 41,000 taxpayers. The IRS planned to complete the NRP
cycle for individuals in time to update the return selection formulas for 2005. However,
delays occurred in installing computer servers, upgrading computer software, and
assigning cases. As a result, the 2002 NRP will not be able to provide data to update
the IRS return selection formulas in 2005 as originally planned. Formulas for selecting
tax returns for examination will now not be updated until 2006. In addition, as of
September 30, 2003, many complex cases had not been started or were only recently
started, which could further affect the timely completion of this Program.
Several operational issues could adversely affect the study results or the goal to
minimize taxpayer burden. These issues include properly preparing the request for
taxpayer information, performing the examination according to required procedures, and
ensuring the examination quality review system can provide reliable information in the
long term. The IRS has identified several of these issues and has already taken some
corrective actions.
Our review of a sample of 81 cases was conducted during the third quarter of Fiscal
Year (FY) 2003 and identified the need to reduce burden by improving the clarity of
written information requests to taxpayers. For example, many of the information
requests reviewed were overly general, used technical jargon, and/or requested items
unnecessarily. The 81 sampled cases also identified that examination issues were not
always properly addressed or information was not properly obtained. Specifically, a
comprehensive evaluation of income was not consistently made and classified items
were not always thoroughly verified. The IRS identified similar problems with
communications and examination issues during its monitoring of NRP examination
quality. Based on these results and our results discussed with management, the Small
Business/Self-Employed (SB/SE) Division has already initiated a series of corrective
actions, including requiring each Area Office1 to prepare an action plan to improve case
quality.
Additionally, the IRS’ efforts to reduce the burden of NRP examinations have yielded
some positive results. In the 81 cases reviewed, wages, interest, and dividends were
generally validated before contact with the taxpayers, where applicable. However, on
average, 83 percent of the total line items on Form 1040 Schedule A2 and 73 percent of
the total line items on Form 1040 Schedule C3 still had to be validated during the
face-to-face contact portion of the examination process. Sixty-nine (85 percent) of the
81 returns reviewed had a Schedule A and/or a Schedule C. Finally, although the IRS’
monitoring of NRP examination quality has identified significant areas for improvement,
the long-term reliability of this quality review system could be improved by incorporating
random case selection techniques.



1
  The SB/SE Division Compliance Field function is geographically organized into 15 Area Offices serving taxpayers
nationwide and 1 Area Office serving international taxpayers.
2
  U.S. Individual Income Tax Return (Form 1040) Schedule A 2001 - Itemized Deductions.
3
  U.S. Individual Income Tax Return (Form 1040) Schedule C 2001 - Profit or Loss From Business.
                                            3


We recommended the Director, Office of Research, Analysis, and Statistics, perform a
thorough post-evaluation of the 2002 NRP and ensure that similar problems are
minimized for the next NRP cycle. We also recommended the Director, Compliance,
SB/SE Division, revise classroom instruction regarding Information Document Request
(IDR) preparation for future NRP cycles, perform visitations to selected areas to help
ensure unstarted and recently started examinations are completed by the September
2004 deadline, and incorporate random sampling into the NRP examination process.
Finally, we recommended the Director, Office of Research, Analysis, and Statistics,
develop interim milestones to help guide the examination phase of the next NRP cycle.
Management’s Response: The IRS generally agreed with the recommendations
presented and indicated that it has already implemented corrective actions to address
some of the issues identified in our report. Specifically, management has already
conducted evaluations of the NRP implementation and will incorporate lessons learned
into planning for the next phase of the NRP. In addition, management will revise future
NRP classroom training concerning IDR preparation and has already completed field
visitations to four high-risk Areas Offices. Finally, management will establish milestones
to assist NRP and Operating Division management in allocating additional resources
and providing assistance as needed on future NRPs. However, management did not
agree with our recommendation to incorporate random sampling techniques into the
NRP quality review process. Management noted that a subjective sample allowed them
to ensure that some returns completed by each examiner are reviewed and to provide
“real time” feedback to each examiner. Management also indicated that the
Examination Quality Measurement System (EQMS) will be reviewing a random sample
of NRP returns for quality and that a separate random sampling quality review process
is unnecessary. Management’s complete response to the draft report is included as
Appendix IV.
Office of Audit Comment: We recognize the IRS’ desire to maintain maximum flexibility
in the NRP quality review process and provide feedback as quickly as possible to each
examiner. We also concur that the EQMS, which uses random sampling, could be used
to reliably evaluate NRP case quality nationwide, provided a sufficient sample of NRP
cases is selected to meet this objective. Because this approach is consistent with the
overall intent of our recommendation, we do not intend to elevate our disagreement to
the Secretary of the Treasury. However, we will continue to closely monitor this issue in
future reviews of the IRS’ NRP activities.
Copies of this report are also being sent to IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
                        Additional Efforts Could Further Improve the Execution
                                   of the National Research Program




                                                  Table of Contents


Background ............................................................................................... Page 1
The Quality of Examinations Is Being Actively Monitored.......................... Page 2
Delays Will Result in Examination Formulas Not Being Available
Until January 2006..................................................................................... Page 3
         Recommendations 1 and 2: .......................................................... Page 6
         Recommendation 3: ...................................................................... Page 7

Taxpayers Were Sometimes Asked for Unnecessary Information............. Page 7
         Recommendation 4: ..................................................................... Page 8

Examination Issues Were Not Always Properly Addressed ...................... Page 8
Taxpayer Burden Reduction Efforts Have Yielded
Some Positive Results .............................................................................. Page 11
The Quality Review Process Did Not Use Random
Selection Techniques ................................................................................ Page 11
         Recommendation 5: ...................................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Management’s Response to the Draft Report .................... Page 17
             Additional Efforts Could Further Improve the Execution
                        of the National Research Program

                             The American tax system is based upon the premise that
Background
                             taxpayers voluntarily file their tax returns and properly
                             report their income and expenses. The Internal Revenue
                             Service (IRS) began comprehensive testing of voluntary
                             taxpayer compliance of individuals in 1963 and continued
                             this practice without interruption until 1988. On average, a
                             sample of approximately 55,000 individual tax returns was
                             examined about every 3 years to measure compliance.
                             These periodic examinations, called Taxpayer Compliance
                             Measurement Program (TCMP) surveys, provided the IRS
                             with valuable information regarding national compliance
                             trends. The IRS used this information for a variety of
                             purposes, including the development of formulas used to
                             select returns for examination.
                             Because TCMP surveys sought to comprehensively measure
                             taxpayer compliance and identify potential tax law changes,
                             the selected individuals were subjected to lengthy and
                             detailed examinations. The burden created by these
                             examinations eventually resulted in significant criticism of
                             the TCMP process by outside stakeholders, such as the
                             Congress and the taxpayer representative community.
                             Although the IRS attempted to initiate a TCMP survey in
                             1994, it was eventually cancelled due, in part, to external
                             concerns. It was not until May 2000 that the IRS began to
                             again seriously plan for another TCMP-type review. These
                             plans eventually called for the National Research Program
                             (NRP) to be completed in three cycles and cover both
                             individual and business taxpayers.
                             In October 2002, the IRS initiated the return examination
                             phase of the NRP to resume the gathering of data it needs to
                             effectively measure noncompliance and support its strategic
                             planning process. The goal of the study is to gather and
                             accurately measure reporting compliance while minimizing
                             the burden on taxpayers during the process. The 2002 NRP
                             will require the face-to-face examination of a sample of
                             approximately 41,000 individual tax returns.
                             Approximately 2,000 additional individual tax returns will
                             be examined via correspondence.
                             In preparation for the NRP, the Small Business/
                             Self-Employed (SB/SE) Division initially trained
                             3,598 Examination personnel. This training was completed

                                                                                   Page 1
                  Additional Efforts Could Further Improve the Execution
                             of the National Research Program

                                  by December 31, 2002. Another 492 Examination
                                  personnel were trained in 2003 to supplement the initial
                                  staffing as needed. As of the end of Fiscal Year (FY) 2003,
                                  there were 5,667 Internal Revenue Agents and 1,029 Tax
                                  Compliance Officers in SB/SE Division Compliance Area
                                  Offices.1 Overall, the SB/SE Division trained over half of
                                  its Examination personnel to be able to conduct NRP
                                  examinations.
                                  This review was performed from March through
                                  September 2003 at the IRS National Headquarters in the
                                  Office of the Director, Research, Analysis, and Statistics,
                                  and in the Boston, Massachusetts; Detroit, Michigan; and
                                  Nashville, Tennessee, SB/SE Division Compliance Area
                                  Offices. The audit was conducted in accordance with
                                  Government Auditing Standards. Detailed information on
                                  our audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The SB/SE Division is actively monitoring NRP
The Quality of Examinations Is
                                  examinations. This monitoring is accomplished through
Being Actively Monitored
                                  periodic reviews of samples of NRP examination cases by
                                  teams of SB/SE Division managers. These reviews were
                                  performed at all 15 Area Offices nationwide in April 2003
                                  and again in July 2003. The results of these reviews, along
                                  with recommendations for improvement, were shared with
                                  NRP examiners and managers; they were consolidated and
                                  evaluated nationwide for trends. Some of the trends
                                  identified nationally included the need for better
                                  communication with taxpayers and more comprehensive
                                  income probes during examinations.
                                  In addition, oversight was provided by SB/SE Division
                                  Headquarters officials, who also visited all 15 Area Offices
                                  to provide guidance and assistance in implementing the
                                  NRP. Based on the results of these efforts and the results of
                                  our review, the SB/SE Division has already initiated
                                  corrective actions to several identified problems in key areas
                                  of the NRP examination process concerning requesting


                                  1
                                   The SB/SE Division Compliance Field function is geographically
                                  organized into 15 Area Offices serving taxpayers nationwide and 1 Area
                                  Office serving international taxpayers.
                                                                                                Page 2
                  Additional Efforts Could Further Improve the Execution
                             of the National Research Program

                                  information from taxpayers and performing examinations
                                  completely as required.
                                  The 2002 NRP will not be able to provide data to update the
Delays Will Result in
                                  IRS examination return selection formulas in 2005 as
Examination Formulas Not Being
                                  originally planned. The 2002 NRP individual tax return
Available Until January 2006
                                  study was initially slated to begin in October 2002 and be
                                  completed by the end of March 2004. The IRS had
                                  estimated this schedule would allow sufficient time to
                                  update the 2005 return selection formulas for examination.
                                  Delays occurred in installing computer servers and
                                  upgrading software, and in assigning and starting cases. As
                                  a result, the IRS revised the NRP completion date to
                                  September 2004 and pushed back the update of the return
                                  selection formulas to January 2006. The delayed start of the
                                  NRP individual return examination cycle also required
                                  assigning alternative work to some examiners who were
                                  scheduled to start NRP cases early in FY 2003. NRP
                                  management informed us that the revised completion date
                                  was derived by factoring in the delayed initial rollout of
                                  inventory and the need to allocate resources for other
                                  priority inventory during the current NRP cycle.
                                  Delays occurred in installing computer servers and
                                  upgrading software
                                  A late start occurred in securing and installing the computer
                                  servers needed to support the control and examination of
                                  NRP cases. This delayed any significant rollout of NRP
                                  inventory of returns from approximately October 2002 to
                                  January 2003. NRP personnel informed us that the number
                                  of examiners actually assigned to the NRP was significantly
                                  higher than originally estimated, which required a
                                  mid-stream increase in server capacity. The IRS also
                                  allocated insufficient time between the development of the
                                  Report Generation Software (RGS)2 upgrades needed to
                                  support NRP examinations and the rollout of the NRP
                                  inventory. As a result, insufficient time was available to
                                  train examiners in the use of the new software.



                                  2
                                    The RGS is a software program used to automate the examination
                                  process, including case building and assignment. The RGS is also used
                                  to compute potential tax adjustments and issue examination reports.
                                                                                                Page 3
Additional Efforts Could Further Improve the Execution
           of the National Research Program

                The next NRP cycle is being planned to examine income tax
                returns of partnerships and Subchapter S Corporations,3 for
                which a pilot study could be initiated as early as the first
                quarter of FY 2005. It is important that this next cycle is
                properly planned and computer requirements are in place to
                ensure schedules are met and compliance results are timely
                obtained.
                Delays occurred in assigning and starting NRP cases
                IRS records show that as of September 30, 2003, only
                12,654 of the planned 41,046 face-to-face NRP
                examinations were either closed or in the process of being
                closed. Another 28,031 NRP cases had been assigned for
                examination; however, 7,439 (27 percent) had not yet been
                started. Of the cases not started, 5,068 had been waiting to
                be started for over 120 days. Over one-half of the
                5,068 cases waiting to be started were located in 4 of the
                15 national SB/SE Division Compliance Area Offices. The
                remaining 361 cases had not yet been assigned
                (see Figure 1).




                3
                  Subchapter S Corporations are corporations that elect to pass corporate
                income and losses to their shareholders for Federal tax purposes.
                                                                                 Page 4
Additional Efforts Could Further Improve the Execution
           of the National Research Program

                       Figure 1: NRP Face-to-Face Examination Inventory Levels



                              NRP Inventory Status Through
                                       FY 2003
                                                          Unassigned 361

                                                          Assigned but not started
                                                          7,439
                     12,654
                                                 11,811   Closing Status 12,654
                               20,592    8,781
                                                          Started/In-process 20,592
                        7,439 361
                                                          Cases in-process < 90 Days
                                                          8,781
                                                          Cases in-process > 90 Days
                                                          11,811


                    Source: Audit Information Management System (AIMS)4 database
                    through FY 2003.

                Among the 5,068 cases assigned but waiting to be started
                for over 120 days, 3,057 (60 percent) contained returns with
                taxpayer income or gross receipts from business income of
                $100,000 or greater. Examinations of higher-income returns
                tend to be more complex and could take longer to complete
                than examinations of less-complex returns. Therefore, these
                examinations need to be started soon to meet the completion
                schedule.
                Similarly, 8,781 (43 percent) of the 20,592 cases started as
                of September 30, 2003, had been in process less than
                90 days. Therefore, while the SB/SE Division has made
                positive progress in processing NRP face-to-face
                examinations, a significant number had yet to be started or
                had only recently been started at the time of our review,
                many of which are of the more complex variety. It is
                critical that progress on the remaining NRP examinations
                stay on track to ensure selection formulas can be timely
                developed and to avoid delaying the start of the next NRP
                cycle.



                4
                 The AIMS is a computer system used by IRS Operating Divisions to
                control returns, record assessments and adjustments, and provide
                management reports.
                                                                                      Page 5
Additional Efforts Could Further Improve the Execution
           of the National Research Program

                SB/SE Division Headquarters monitors NRP inventory
                levels through the analysis of monthly AIMS data reports.
                However, the IRS has not developed any interim inventory
                milestones to help it gauge its progress on the 18-month
                effort.
                Delays occurred in working cases
                Even when cases were assigned, examiners did not always
                provide priority treatment to them. In 17 (21 percent) of the
                81 sample cases examined during the third quarter of
                FY 2003, we identified periods of inactivity of 30 days or
                more. In these cases, examiners were not actively working
                the cases, usually because they were working non-NRP
                inventory or they were being assigned to other temporary
                work details. In addition, 8 of the 17 cases had delays in
                processing of 45 days or more. Gaps in case processing
                delay final case resolution and can result in increased
                taxpayer burden. The performance of NRP examinations is
                a major operational priority. The IRS is relying on the data
                from the NRP to timely update its examination selection
                process and reduce the burden on compliant taxpayers.

                Recommendations

                1. The Director, Office of Research, Analysis, and
                   Statistics, should perform a thorough post-evaluation of
                   the planning and scheduling of key deliverables of the
                   2002 NRP. Planning efforts for the next NRP should
                   ensure that similar problems are minimized.
                Management’s Response: The NRP staff has conducted
                post-evaluative conferences and focus groups with NRP
                examiners and managers to discuss what went right and
                wrong with the reporting compliance study. The results
                from the lessons learned and focus groups are being
                incorporated into the planning for the next phase of the
                NRP, as appropriate.
                2. The Director, Compliance, SB/SE Division, should
                   perform field visitations focused on Area Offices most
                   at risk of not meeting deadlines.
                Management’s Response: In October 2003, the SB/SE
                Division identified four Area Offices that had the highest

                                                                      Page 6
                 Additional Efforts Could Further Improve the Execution
                            of the National Research Program

                                 percentage of unstarted NRP returns and completed two
                                 inventory visitations in November and two in December for
                                 these Area Offices. The SB/SE Division and the NRP staff
                                 will continue to monitor Area Office operations and provide
                                 assistance as necessary.
                                 3. The Director, Office of Research, Analysis, and
                                    Statistics, in consultation with the appropriate Operating
                                    Divisions, should develop interim milestones to help
                                    guide the examination phase of the next NRP cycle.
                                 Management’s Response: The NRP staff, in close
                                 cooperation with the appropriate Operating Divisions, will
                                 include milestones in the NRP project plan for completing
                                 the examination phase of their next reporting compliance
                                 study. These milestones will be used only as guidelines to
                                 help the NRP and Operating Division staffs determine
                                 where additional resources and assistance may be needed.
                                 Any milestones developed will be used as an information
                                 tool for internal use only and not as a metric to assess Area
                                 Offices.
                                 Office of Audit Comment: Management’s corrective action
                                 is consistent with the intent of the recommendation.
                                 Improving the clarity of the IRS’ written information
Taxpayers Were Sometimes
                                 requests provided to taxpayers could reduce the burden
Asked for Unnecessary
                                 imposed by the NRP process. Examiners use Information
Information
                                 Document Requests (IDRs) to request documentation for
                                 expenses such as receipts and mileage logs. The IDRs in
                                 32 (40 percent) of our 81 reviewed cases were overly
                                 general, used technical jargon, requested unnecessary items,
                                 or requested items that the IRS already had. For example,
                                 one IDR requested data related to interest and dividend
                                 income although the taxpayer’s return and all of the IRS’
                                 information sources clearly indicated the taxpayer received
                                 no dividend or interest income. Clear and concise
                                 information requests are critical to minimizing taxpayer
                                 confusion and speeding the examination process.
                                 The SB/SE Division’s Reporting Compliance function
                                 identified similar problems with IDRs during its monitoring
                                 of NRP examination quality. Based on these results, in
                                 conjunction with the results we provided, the IRS has
                                 already initiated some corrective actions. On May 28, 2003,

                                                                                        Page 7
                  Additional Efforts Could Further Improve the Execution
                             of the National Research Program

                                  the SB/SE Division Reporting Compliance function issued
                                  the National Quality review results to examiners outlining
                                  the NRP quality areas most in need of improvement
                                  nationwide. The quality review results provided
                                  reinforcement of proper examination techniques, including
                                  proper IDR preparation. In addition, on June 12, 2003, the
                                  SB/SE Division distributed a self-study workshop regarding
                                  the preparation of IDRs to NRP Territory Office5 managers.
                                  One possible cause for the IDR problems is that the 3-day
                                  NRP training class that all examiners were required to
                                  attend did not address the importance of ensuring each IDR
                                  is specifically tailored to the taxpayer under examination
                                  and avoids technical jargon. IDRs that request unnecessary
                                  items are counterproductive to the IRS’ efforts to reduce the
                                  taxpayer burden of this study.

                                  Recommendation

                                  4. The Director, Compliance, SB/SE Division, should
                                     revise classroom instruction regarding IDR preparation
                                     for future NRPs.
                                  Management’s Response: Classroom instruction for the
                                  next phase of the NRP will include a specific module on
                                  preparing IDRs.
                                  Our review of a sample of 81 NRP examinations identified
Examination Issues Were Not
                                  3 areas in which issues were not always addressed or
Always Properly Addressed
                                  information was not properly obtained. First, a
                                  comprehensive evaluation of income was not consistently
                                  made.
                                      •   A preliminary assessment of the validity of the
                                          income reported on a tax return, called a Cash T
                                          analysis, was not made in 24 (30 percent) of the
                                          81 cases reviewed.
                                      •   Routine income evaluation steps, such as the
                                          analysis of bank statements for unreported income
                                          and queries to determine the disposition of assets


                                  5
                                    The 16 SB/SE Division Field Compliance function Area Offices are
                                  further divided into geographically based territories. Each of these
                                  territories is headed by a Territory Manager.
                                                                                                 Page 8
Additional Efforts Could Further Improve the Execution
           of the National Research Program

                         from a business liquidated during the examination
                         year, were not made in 6 (14 percent) of
                         42 examined cases involving taxpayers with
                         business income.
                NRP guidelines require a thorough evaluation of income
                from all sources, including an analysis of bank records for
                business taxpayers. Ensuring examinations include a
                thorough income evaluation has been a longstanding
                problem for the SB/SE Division and may be attributable to a
                number of factors, including a fear by examiners of
                violating the provisions of the IRS Restructuring and
                Reform Act of 1998 (RRA 98).6 The RRA 98 added a
                requirement to determine there is a reasonable indication
                that unreported income exists before examiners can use
                financial status or economic reality examination techniques.
                In addition, taxpayers can file claims that an employee is
                harassing them. An employee violation could lead to
                reprimand, disciplinary action, or removal.
                Second, classified7 items were not always thoroughly
                verified for accuracy. In 6 (7 percent) of the 81 cases,
                classified deductions and reported income were accepted
                with little or no documented substantiating evidence. In one
                case, all of the three expenses classified on a Schedule C8
                business return were accepted despite the lack of any
                documentary evidence.
                Finally, information gathered regarding independent
                contractor status9 was not accurately recorded on the NRP
                questionnaire in 7 (21 percent) of the 34 applicable cases.

                6
                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                7
                  Classification is a process whereby tax returns selected for
                examination are reviewed to identify those items on the return which
                require additional information from the taxpayer.
                8
                  U.S. Individual Income Tax Return (Form 1040) Schedule C 2001 -
                Profit or Loss From Business.
                9
                  To correctly report tax liabilities, businesses must accurately determine
                whether workers are independent contractors or employees. Improper
                classification may result in additional tax liabilities and creates
                additional work for both the business and the IRS. The IRS has
                identified the classification of workers as an area of confusion to some
                small businesses and is gathering detailed information about this issue
                as part of the NRP.
                                                                                  Page 9
Additional Efforts Could Further Improve the Execution
           of the National Research Program

                As part of the NRP process, the IRS is gathering detailed
                information on independent contractor status issues. This
                information is documented in the NRP questionnaire, which
                is completed as part of the processing of all NRP cases.
                Accurate verification of items and information gathering is
                critical to ensuring the reliability of the NRP results.
                The SB/SE Division identified similar problems with
                income probes and classified item evaluation during its
                monitoring of NRP examination quality. Based on these
                results and the results we discussed with management
                officials, the SB/SE Division has already initiated the
                following corrective actions relative to income probes,
                classified issue evaluation, nonemployee compensation, and
                independent contractor status determinations:
                    •   On May 28, 2003, and September 2, 2003, the
                        SB/SE Division’s Reporting Compliance function
                        issued the National Quality review results to
                        examiners outlining the NRP quality areas most in
                        need of improvement nationwide. For example,
                        these memoranda highlighted common errors related
                        to income probes and provided reinforcement of the
                        proper examination techniques. The results of these
                        reviews were also discussed in conference calls held
                        with SB/SE Division Area Office managers.
                    •   On June 25, 2003, all Area NRP Territory Office
                        manager Coordinators were reminded about the need
                        to ensure information gathered about nonemployee
                        compensation/independent contractor status is
                        accurately recorded on the NRP questionnaire.
                    •   On July 24, 2003, the Deputy Director, Compliance
                        Policy, issued a memorandum addressing the quality
                        of NRP examinations, including a discussion of the
                        NRP questionnaire.
                    •   On September 12, 2003, the Deputy Director,
                        Compliance Policy, directed each Area Office to
                        prepare an NRP case quality action plan. The plan is
                        required to list additional actions that will be taken at
                        the Area level to improve case quality and should be
                        tailored to address concerns identified during the
                        Area Office quality reviews.

                                                                        Page 10
                   Additional Efforts Could Further Improve the Execution
                              of the National Research Program

                                   We believe the SB/SE Division’s actions should adequately
                                   address the concerns we identified in this area, so we are
                                   making no recommendations.
                                   The NRP process is a very sensitive issue to external
Taxpayer Burden Reduction
                                   stakeholders such as the Congress and the taxpayer
Efforts Have Yielded Some
                                   representative community. Prior compliance efforts were
Positive Results
                                   negatively perceived because the examinations were very
                                   intrusive – the examiner verified every item on the tax
                                   return. When planning for the 2002 NRP, the IRS
                                   announced and publicized the new effort and explained that
                                   examiners would use data from various sources, rather than
                                   verify with the taxpayer each line item on the return.
                                   The IRS’ efforts to reduce the burden of NRP examinations
                                   have yielded some positive results. In the 81 cases
                                   reviewed, wages, interest, and dividends were generally
                                   validated before contact with the taxpayers, where
                                   applicable. However, on average, 83 percent of the total
                                   line items on Form 1040 Schedule A10 and 73 percent of the
                                   total line items on Form 1040 Schedule C still had to be
                                   validated during the face-to-face contact portion of the
                                   examination process. Sixty-nine (85 percent) of the
                                   81 returns had a Schedule A and/or a Schedule C.
                                   Although the IRS attempted to reduce the burden on
                                   taxpayers, in reality, numerous income and expense items
                                   still needed to be verified with the taxpayer because no
                                   other source was available to verify the item. Without such
                                   verification, the NRP’s measurement of compliance would
                                   not be accurate.
                                   The NRP process includes a quality review program that
The Quality Review Process Did
                                   analyzes various examination standards to evaluate the
Not Use Random Selection
                                   quality of the examinations. While the SB/SE Division’s
Techniques
                                   quality review efforts have thus far identified a number of
                                   significant areas for improvement, the reliability of data
                                   gathered through this effort could be enhanced.
                                   Specifically, NRP examinations subject to quality review
                                   are not randomly selected, which could eventually affect the
                                   long-term reliability of the results. According to NRP
                                   Territory Office managers, they select the cases for quality

                                   10
                                      U.S. Individual Income Tax Return (Form 1040) Schedule A 2001 -
                                   Itemized Deductions.
                                                                                              Page 11
Additional Efforts Could Further Improve the Execution
           of the National Research Program

                review based on a number of criteria, including the desire to
                sample from as many different examiners and taxpayer
                income levels as possible.
                NRP project management chose the present methodology to
                expedite the implementation of the quality review process.
                A random sample is one that seeks to represent, as closely
                as possible, the population from which it is drawn. Random
                sample selection techniques require that every item in the
                population have an equal chance of being selected. When
                random samples are not used, the reliability of the results
                may not be adequate because the results may not be
                representative of the program. Reliable management
                information is critical to effective decision making.

                Recommendation

                5. The Director, Compliance, SB/SE Division, should
                   develop procedures that require random sampling
                   techniques for the quality review process.
                Management’s Response: Management did not agree with
                our recommendation to incorporate random sampling
                techniques into the NRP quality review process.
                Management noted that the NRP quality review process was
                designed to identify problems and provide feedback to each
                examiner. Using a subjective sample assures that some
                returns completed by each examiner will be reviewed.
                Management also indicated that the Examination Quality
                Measurement System (EQMS) would be reviewing a
                random sample of NRP returns for quality and that a
                separate random sampling quality review process is
                unnecessary.
                Office of Audit Comment: We recognize the IRS’ desire to
                maintain maximum flexibility in the NRP quality review
                process and provide feedback as quickly as possible to each
                examiner. We also concur that the EQMS, which uses
                random sampling, could be used to reliably evaluate NRP
                case quality nationwide, provided a sufficient sample of
                NRP cases is selected to meet this objective. This approach
                is consistent with the overall intent of our recommendation;
                however, we will continue to closely monitor this issue in
                future reviews of the IRS’ NRP activities.

                                                                     Page 12
                     Additional Efforts Could Further Improve the Execution
                              of the National Research Program

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the Internal Revenue Service (IRS)
Examination function effectively implemented the 2002 National Research Program (NRP)
initiative. This review was accomplished by conducting interviews with responsible
management officials and analyzing NRP examination case files. We also examined instructions
issued pertaining to the examination of NRP cases and tools developed to assist examiners in
conducting NRP examinations. Specifically, we:
I.      Determined whether the resources of the Boston, Massachusetts, and Nashville,
        Tennessee, Area Offices1 were effectively organized to meet the goals of the NRP.
        A. Examined field-level procedures for assigning NRP inventory to examiners.
        B. Interviewed responsible managers to determine whether IRS goals relating to the
           completion of the NRP were reasonable and attainable.
II.     Determined whether field-level controls were effective to ensure NRP examinations yield
        reliable data and minimize taxpayer burden.
        A. Interviewed responsible management officials in the Boston, Massachusetts; Detroit,
           Michigan; and Nashville, Tennessee, Area Offices to identify field-level concerns
           regarding NRP examination processing. We selected the Boston and Nashville Area
           Offices randomly. The Detroit Area Office was selected to facilitate interviews of the
           NRP Champion (area level lead executive) and his staff.
        B. Examined a sample of 81 NRP cases selected from the Boston and Nashville Area
           Offices and determined whether NRP examiners performed required income probe
           procedures and gathered sufficient evidence to support their conclusions regarding the
           accuracy of filed returns. To accomplish our objective, we relied on a judgmental
           sampling methodology. We used this sampling methodology to allow for the on-site
           review of in-process NRP examinations within the constraints of our available
           staffing. The cases were chosen from the inventory of NRP examinations at the
           selected offices during the third quarter of Fiscal Year 2003. The individual return
           cycle of the NRP is comprised of approximately 41,000 face-to-face examinations.
        C. Assessed the overall timeliness of casework for the sample of NRP cases.
III.    Evaluated the extent of all levels of IRS managerial supervision and involvement in the
        NRP examination process.


1
 The SB/SE Division Compliance Field function is geographically organized into 15 Area Offices serving taxpayers
nationwide and 1 Area Office serving international taxpayers.
                                                                                                       Page 13
           Additional Efforts Could Further Improve the Execution
                    of the National Research Program

A. Determined whether effective procedures were in place for the conduct of reviews of
   examiner case actions by Area Office-level review teams.
B. Determined whether controls were in place to incorporate managerial feedback into
   future case activity.




                                                                               Page 14
                  Additional Efforts Could Further Improve the Execution
                           of the National Research Program

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Philip Shropshire, Director
Anthony J. Choma, Audit Manager
Joseph F. Cooney, Senior Auditor
Joseph P. Snyder, Senior Auditor
Mildred Rita Woody, Senior Auditor
Seth Siegel, Auditor




                                                                                       Page 15
                 Additional Efforts Could Further Improve the Execution
                          of the National Research Program

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, National Research Program RAS:NRP
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Office of Research, Analysis, and Statistics RAS




                                                                               Page 16
Additional Efforts Could Further Improve the Execution
         of the National Research Program

                                                         Appendix IV


  Management’s Response to the Draft Report




                                                              Page 17
Additional Efforts Could Further Improve the Execution
         of the National Research Program




                                                         Page 18
Additional Efforts Could Further Improve the Execution
         of the National Research Program




                                                         Page 19
Additional Efforts Could Further Improve the Execution
         of the National Research Program




                                                         Page 20
Additional Efforts Could Further Improve the Execution
         of the National Research Program




                                                         Page 21
